                                              SINGLE AUDIT
                                              QUALITY CONTROL REVIEW


Office of Inspector General—Office of Audit




                                              QUALITY CONTROL REVIEW:
                                              SINGLE AUDIT OF SOUTH CAROLINA
                                              EMPLOYMENT SECURITY COMMISSION
                                              FOR THE YEAR ENDED JUNE 30, 2008




                                                                  Date Issued: June 7, 2010
                                                               Report Number: 24-10-003-03-315
U.S. Department of Labor                 Office of Inspector General
                                         Washington, DC 20210


June 7, 2010


                        Assistant Inspector General’s Report

Mr. Doug Reeves
Director of Fiscal Affairs
South Carolina Employment Security Commission
1550 Gadsden Street
Columbia, SC 29202

Dear Mr. Reeves:

The purpose of this report is to formally advise you of the results of a Quality Control
Review (QCR) the U.S. Department of Labor (DOL), Office of Inspector General (OIG)
conducted of the following audit completed by Scott McElveen, L.L.P. (the Firm), under
the Federal Single Audit Act and Office of Management and Budget (OMB) Circular
A-133 (A-133):

         Single Audit of the South Carolina Employment Security Commission
                      (SC ESC) for the year ended June 30, 2008

The objectives of the QCR were to determine whether (1) the audit was conducted in
accordance with applicable standards and met the single audit requirements; (2) any
follow-up work is needed, and (3) there are any issues that may require management’s
attention.

Our review included the following major programs:

                                                       Catalog of Federal Domestic
                    Program
                                                       Assistance (CFDA) Number
 Employment Service Cluster                            17.207 (Employment Service)
                                                       17.801 (Disabled Veterans
                                                              Outreach Program)
                                                              (DVOP)
                                                       17.804 (Local Veterans
                                                              Employment
                                                              Representative (LVER)
                                                              Program)
 Unemployment Insurance (UI)                           17.225
 Trade Adjustment Assistance (TAA) - Workers           17.245



                                                                    Quality Control Review
                                            South Carolina Employment Security Commission
                                                           Report Number: 24-10-003-03-315
                                        U.S. Department of Labor – Office of Inspector General



We determined that the audit work performed did not meet certain requirements of the
Single Audit Act and A-133. Additional work is required to bring this audit into
compliance with certain requirements of the Single Audit Act. Specifically, the Firm
needs to document its understanding of the five components of internal control to
assess the risks of material noncompliance for each major program and perform any
additional testing deemed necessary. Furthermore, the Firm should prepare audit
documentation that provides a clear understanding of the TAA program as it pertains to
the SC ESC. We also noted an issue requiring the Firm to separately identify a cluster
in the Schedule of Expenditures of Federal Awards (SEFA) in the format required by A-
133.

The Firm agreed to address the noted deficiencies to improve the quality of the audit.
Details on the results of our review are provided in the Enclosure.

Sincerely,




Elliot P. Lewis
Assistant Inspector General
 for Audit

Enclosure

cc: Judith A. Fisher, Director, Division of Policy, Review, and Resolution,
    Employment and Training Administration

   Donald J. Mobley, Audit Partner, Scott McElveen, L.L.P.




                                            2                       Quality Control Review
                                            South Carolina Employment Security Commission
                                                           Report Number: 24-10-003-03-315
                                       U.S. Department of Labor – Office of Inspector General



                                                                                Enclosure

                             Quality Control Review:
      Single Audit of the South Carolina Employment Security Commission,
   Financial Statements, Schedule of Expenditures of Federal Awards, Reports
                Required by Government Auditing Standards and
                OMB Circular A-133 for Year Ended June 30, 2008
                                (24-10-003-03-315)

Introduction

The Single Audit Act of 1984, as amended by the Single Audit Act Amendments of
1996, created a single organization-wide financial and compliance audit for state and
local governments, colleges, universities, and not-for-profit organizations that expend
Federal funds equal to or greater than $300,000 in any fiscal year ($500,000 for fiscal
years ending after December 31, 2003).

On March 31, 2009, the Firm issued a single audit report of the SC ESC financial
statements, SEFA, and reports required by Government Auditing Standards (GAS) and
OMB A-133 for the year ended June 30, 2008.

We performed a QCR of the above referenced audit. Our review included the following
major programs:

                  Program                          CFDA Number
 Employment Service Cluster                        17.207 (Employment Service)
                                                   17.801 (DVOP)
                                                   17.804 (LVER Program)
 UI                                                17.225
 TAA - Workers                                     17.245

Objectives

The objectives of the QCR were to determine whether (1) the audit was conducted in
accordance with applicable standards and met the single audit requirements; (2) any
follow-up work is needed; and (3) there are any issues that may require management’s
attention.

Results

We determined that the audit work performed did not meet certain requirements of the
Single Audit Act and A-133. Additional work is required to bring this audit into
compliance with certain requirements of the Single Audit Act. Specifically, the Firm
needs to document its understanding of the five components of internal control to
assess the risks of material noncompliance for each major program and perform any

                                             3                      Quality Control Review
                                            South Carolina Employment Security Commission
                                                           Report Number: 24-10-003-03-315
                                        U.S. Department of Labor – Office of Inspector General


additional testing deemed necessary. Furthermore, the Firm should prepare audit
documentation that provides a clear understanding of the TAA program as it pertains to
the SC ESC. We also noted an issue requiring the Firm to separately identify a cluster
in the SEFA in the format required by A-133.


Internal Control and Compliance for Major Programs

1. The Firm did not sufficiently demonstrate the planning and testing of internal
    controls for each major program.

Although the Firm performed compliance testing, it did not demonstrate an
understanding of the five components of internal control necessary to assess the risks
of material noncompliance for each major program. The Firm performed required
compliance testing related to two operating segments — program-related administration
and program-related benefit payments — without considering the need to review the
five elements of internal controls as required.

The American Institute of Certified Public Accountants (AICPA) Audit Guide, GAS, and
A-133 Audits, Chapter 9.09, states:

       When considering internal control over compliance, the auditor should
       obtain an understanding of the five elements of internal control sufficient to
       assess the risks of material noncompliance with each direct and material
       compliance requirement for each major program.

Chapter 9.11 states, in part:

       …the auditor should perform procedures to obtain an understanding of
       internal control over compliance for federal programs that is sufficient to
       plan the audit to support a low assessed level of control risk for major
       programs. In order to do this, an understanding is needed of which of the
       14 types of compliance requirements identified in the OMB Circular A-133
       Compliance Supplement have a direct and material effect on each major
       program.

Chapter 9.31 provides that internal control testing and compliance testing may be
accomplished concurrently through performance of a test of internal controls and a test
of compliance on the same transaction (a dual-purpose test).

The Firm said due to an oversight, it did not demonstrate an understanding of the five
components of internal control necessary to sufficiently assess the risks of material
noncompliance for each major program. However, the Firm felt that it carried out
compliance testing sufficient to give an opinion on each major program.



                                             4                       Quality Control Review
                                             South Carolina Employment Security Commission
                                                            Report Number: 24-10-003-03-315
                                       U.S. Department of Labor – Office of Inspector General



Without obtaining an adequate understanding of internal controls and performing the
necessary tests of controls, there is no assurance that management designed the
internal controls to provide reasonable assurance that unauthorized acquisition, use, or
disposition of assets will be prevented, or timely detected and corrected. As a result,
there was less assurance that the dual-purpose testing performed was sufficient to
render an opinion on compliance for each major program.

Quality Control

2. The Firm did not adequately document an understanding of the TAA program
    within the SC ESC.

Certain audit documentation pertaining to at least $34.4 million of the TAA funds did not
agree with other audit documentation, the SEFA, or the Data Collection Form submitted
to the Federal Audit Clearinghouse. The SEFA and Data Collection Form reported these
TAA funds as being received directly from DOL. However, other audit documentation
referred to the funds as being received by the South Carolina Department of Commerce
(SC DOC). According to the Firm, the SC ESC Director of Finance stated that prior to
February 2008, the TAA program at the SC ESC was funded directly by DOL. Beginning
in February 2008, the SC DOC received the training portion of TAA program, which it
forwarded to Local Workforce Investment Boards (LWIB). No transfer of funds occurred
between SC ESC and SC DOC. However, the SC ESC did contract with the LWIBs to
provide training. The Firm expressed an understanding of the TAA program as
described above but did not document its understanding.

GAS, paragraphs 4.22 through 4.24, provide that audit documentation for financial
audits performed in accordance with GAS should contain sufficient information to
enable an experienced auditor who has had no previous connection with the audit to
ascertain from the audit documentation the evidence that supports the auditors’
significant judgments and conclusions.

The Firm attributed the inconsistent audit documentation to an oversight and agreed
that the documentation should have been presented better.

Because the audit documentation for the TAA program was not prepared sufficiently,
further explanations were needed to support the auditor’s opinions and conclusions.
Audit documentation should be able to stand alone without additional information being
necessary for the reviewer to reach the same conclusions. Reviewers should be able to
ascertain the work performed, results, and conclusions without having to ask for further
clarification.




                                            5                      Quality Control Review
                                           South Carolina Employment Security Commission
                                                          Report Number: 24-10-003-03-315
                                        U.S. Department of Labor – Office of Inspector General



Single Audit Requirements

3. A cluster was not properly presented in the SEFA.

The Firm did not ensure that the auditee complied with reporting requirements to
prepare the SEFA in the format required by A-133. CFDAs 17.207, 17.801, and 17.804
should have been presented as a cluster but instead were reported individually. The
Firm’s auditing procedures included steps to ensure that auditees were complying with
A-133 reporting requirements but the steps did not include checking for proper cluster
presentation.

A-133, Subpart C—Auditee Responsibilities, Section 310(b), Financial statements,
Schedule of expenditures of Federal awards, states, in part:

      . . . At a minimum, the schedule shall: (1) List individual Federal programs
      by Federal agency. For Federal programs included in a cluster of
      programs, list individual Federal programs within a cluster of programs.

The Firm told us it is aware of the cluster reporting requirement and attributed its
acceptance of the grantee-prepared SEFA to an oversight. The Firm agreed that the
clustered CFDA should have been presented together in the SEFA. When the Federal
programs are not presented in a cluster, it does not provide a uniform report
presentation or allow users to more efficiently and effectively use the data contained in
the reports.

Recommendations

We recommend the Firm:

 1. Document its understanding of the five components of internal control to assess
    the risks of material noncompliance for each major program and perform any
    additional internal control testing deemed necessary.

 2. Add audit documentation that provides a clear understanding of SC ESC’s TAA
    program.

 3. Include in its audit procedures steps to ensure auditees separately present clusters
    in the SEFA in the format required by A-133.

Firm’s Response

The Firm agreed and acknowledged that it did not sufficiently demonstrate the planning
and testing of internal controls for each major program in accordance with the five
elements of the Committee of Sponsoring Organizations of the Treadway Commission.
The Firm responded that it thoroughly documented the internal controls in place over

                                            6                       Quality Control Review
                                            South Carolina Employment Security Commission
                                                           Report Number: 24-10-003-03-315
                                       U.S. Department of Labor – Office of Inspector General



financial reporting and believed it sufficiently tested compliance over the major
programs. The Firm said it will document 2008 internal controls over major programs by
inquiring of SC ESC management and verifying that the controls in place were the same
in 2009 and 2008. After verifying this, the Firm stated that it will determine if further
control testing and compliance testing are necessary. The Firm agreed to provide
additional documentation that clearly explains the TAA program within the SC ESC.
Regarding clustering, the Firm used the Practitioners Publishing Company (PPC) Single
Audit Reporting Checklist which did not address clusters. The Firm agreed to take the
steps necessary to identify all clusters in the SEFA. The Firm will add steps to its
auditing procedures that ensure clusters are considered in the reporting process and
are properly identified in the SEFA. The Firm will also ensure that there is proper
linkage between the audit documentation and the SEFA. The Firm stated that all
corrective actions above will be completed and documented by August 31, 2010. See
Appendix D for the Firm’s complete response to our draft report.

OIG’s Conclusion

The Firm concurred with all findings. Based upon the Firm’s response, the
recommendations are resolved and can be closed when we are provided evidence the
corrective actions described in the Firm’s response have been implemented.




                                            7                      Quality Control Review
                                           South Carolina Employment Security Commission
                                                          Report Number: 24-10-003-03-315
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




              8                       Quality Control Review
              South Carolina Employment Security Commission
                             Report Number: 24-10-003-03-315
             U.S. Department of Labor – Office of Inspector General




Appendices




                  9                      Quality Control Review
                 South Carolina Employment Security Commission
                                Report Number: 24-10-003-03-315
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




              10                      Quality Control Review
              South Carolina Employment Security Commission
                             Report Number: 24-10-003-03-315
                                       U.S. Department of Labor – Office of Inspector General



                                                                               Appendix A
Background

The Single Audit Act of 1984 established consistent and uniform entity-wide audit
requirements for state and local governments receiving Federal financial assistance. The
single audit is the primary mechanism used by Federal agencies to ensure accountability
for Federal awards. Audits performed under the Single Audit Act are intended to satisfy all
Federal agencies providing assistance to the entity. The act was amended in 1996 by
Public Law 104-156, raising the threshold for single audit to $300,000 in Federal
assistance. The June 27, 2003, revision to A-133 raised this threshold to $500,000 for
fiscal years ending after December 31, 2003.

QCRs are performed to provide evidence of the reliability of single audits to the auditors
of Federal agency financial statements, such as those required by the Chief Financial
Officers Act, those responsible for the programs, and others. We performed a QCR of the
single audit of the SC ESC financial statements, SEFA, and reports required by GAS and
OMB Circular A-133 for the year ended June 30, 2008, performed by the Firm.

The SC ESC was created by Section 41-29-10 of the South Carolina Code of Laws to
administer the South Carolina Employment Security Law. This law provides for the
payment of UI benefits, the collection of the unemployment tax from subject employers,
and the operation of a statewide employment service. The administrative costs of the
SC ESC are paid from grants primarily from DOL. The UI Program collects taxes from
employers covered by the law, and pays out unemployment benefits to unemployed
workers under both state and Federal laws. The SC ESC’s mission is to provide quality,
customer-driven workforce services that promote financial stability and economic
growth. The SC ESC provides both UI and job development and training for state
residents. For the year ending June 30, 2008, the SC ESC reported expending $91.9
million in Federal funds, which with the exception of $6,738, was attributable to DOL.




                                            11                     Quality Control Review
                                           South Carolina Employment Security Commission
                                                          Report Number: 24-10-003-03-315
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




              12                      Quality Control Review
              South Carolina Employment Security Commission
                             Report Number: 24-10-003-03-315
                                        U.S. Department of Labor – Office of Inspector General



                                                                           Appendix B
Objectives, Scope, Methodology and Criteria

Objectives

Our objectives were to determine whether:

      1. The audit was conducted in accordance with applicable standards and met the
         single audit requirements;

      2. any follow-up work is needed; and

      3. there are any issues that may require management’s attention.

Scope

We performed a QCR of the single audit of the SC ESC, Financial Statements, SEFA,
Reports Required by GAS and OMB Circular A-133 for Year Ended June 30, 2008, at
the offices of Scott McElveen, L.L.P., located at 1441 Main Street, Suite 800, Columbia,
South Carolina, from February 1, 2010, to February 4, 2010.

Our review included the following major programs:

                  Program                           CFDA Number
 Employment Service Cluster                         17.207 (Employment Service)
                                                    17.801 (DVOP)
                                                    17.804 (LVER Program)
 UI                                                 17.225

 TAA - Workers                                      17.245

Methodology

Using the President’s Council on Integrity and Efficiency Uniform QCR Guide for A-133
Audits, we reviewed audit documentation and held discussions with the Firm’s partners
and audit manager to accomplish the required steps. The Guide was developed to test
for compliance with GAS general and fieldwork standards and A-133 requirements.
Specifically, we reviewed:
    • Competence
    • Independence
    • Professional Judgment
    • Quality Control
    • Planning and Supervision
    • Management Representations

                                              13                     Quality Control Review
                                             South Carolina Employment Security Commission
                                                            Report Number: 24-10-003-03-315
                                       U.S. Department of Labor – Office of Inspector General



   •   Litigation, Claims and Assessments
   •   Possible Fraud or Illegal Acts
   •   Determination of Major Programs
   •   Schedule of Expenditures of Federal Awards
   •   Audit Follow up
   •   Reporting
   •   Internal Control Over Major Programs
   •   Data Collection Form

We also reviewed the Firm’s peer review applicable to the period of the audit.

Criteria

Government Auditing Standards

AICPA Audit Guide, GAS, and OMB A-133 Audits

Guidance on Generally Accepted Government Auditing Standards Requirements for
Continuing Professional Education

Single Audit Act of 1984

Single Audit Act Amendments of 1996

OMB A-133




                                           14                      Quality Control Review
                                           South Carolina Employment Security Commission
                                                          Report Number: 24-10-003-03-315
                                    U.S. Department of Labor – Office of Inspector General



                                                                            Appendix C
Acronyms and Abbreviations


  A-133    Office of Management and Budget Circular A-133

  AICPA    American Institute of Certified Public Accountants

  CFDA     Catalog of Federal Domestic Assistance

  DOL      Department of Labor

  DVOP     Disabled Veterans Outreach Program

  Firm     Scott McElveen, L.L.P.

  GAS      Government Auditing Standards

  LVER     Local Veterans Employment Representative

  LWIB     Local Workforce Investment Board

  OIG      Office of Inspector General

  OMB      Office of Management and Budget

  PPC      Practitioners Publishing Company

  QCR      Quality Control Review

  SEFA     Schedule of Expenditures of Federal Awards

  SC DOC South Carolina Department of Commerce

  SC ESC South Carolina Employment Security Commission

  TAA      Trade Adjustment Assistance

  UI       Unemployment Insurance




                                          15                     Quality Control Review
                                         South Carolina Employment Security Commission
                                                        Report Number: 24-10-003-03-315
          U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




              16                      Quality Control Review
              South Carolina Employment Security Commission
                             Report Number: 24-10-003-03-315
                                                                           U.S. Department of Labor – Office of Inspector General



                                                                                                                                                 Appendix D
Independent Public Accountant Response to Draft Report




                                  McEI. y££N •.•.•.


         May 24, 2010

         Mr. Elliott P. Lewis
         Assistanl Inspector Oeneral for Audit
         U. S. Department of Labor
         Washington, OC 20210

         Dear Mr. Lewis:

         We have the following responses to your fmdings relating to your quality conuol review of the J une 30,
         2008 quality control review of the Single Audit for the South Carolina Employment Security
         Commission:

         Finding IH : The Firm did not sufficiently demonSlTatc the planning and testing of internal controls for
         each major program in accordance with the S elements of COSO.

         Firm 's Res ponse In Fi ndin g # 1: We agree with the finding and acknowledge that we did not
         sufficiently demonstrate the planning and testing of internal controls for each major program in
         accordance with the S elements of COSO. Although we did document thoroughly the internal controls in
         place oyer financ ial reporting and believe that We sufficiently tested compliance over major programs, we
         do acknowledge that we did not use the S elements of the COSO framework to document our
         understanding of internal controls for the major programs for the South Carolina Employmen t Security
         Commission ("SCESC") single audit for the year ended June 30, 2008. Subsequent to the Quality
         Contro l Review ("QC R"), we performed our 2009 SCESC single audit using the 5 elements of COSO to
         document internal controls. In response to this finding, the United States Department of Labor Inspector
         General's Office ("010") b"" asked us to document 2008 internal controls over major programs by
         inquiring of SCE SC management and verifYing that the controls in place were the same in 2009 and
         2008. After verifYing this, we will determine if further control testing and compliance lcsling DOl
         necessary.

         Finding #2: The Firm did not adequately document an understanding o f the TAA program within the
         SCESC.

         Firm's Res ponse to Fi nding #2: AJtbough significant compliance testing was perfonned relating 10 the
         TAA program, we ligret with the finding and will provide additional audit documentation that clearly
         explains the TAA program within the SeESC.




                             ..,mO." .'C'•.SC.O., ...C."" ......" ••                                       '44' M.;" $"""•.w".loo   Tn (1"1) 'S6·60"
                              •• , ••••••••• , ...   ~   . . . . , , . . . 00   ,.,.~   . . . ,,, . . ,,   P"" Offic. 8Q' 1111      •• • (1"1) 's6·al~6




                                                                                          17                     Quality Control Review
                                                                                         South Carolina Employment Security Commission
                                                                                                        Report Number: 24-10-003-03-315
                                                  U.S. Department of Labor – Office of Inspector General




Finding #3: A duster was Dot properly p",scnted in the SE FA.

Firm's Response to Jo' ;nding #3: Wc agree with your finding and acknowledge that we did not
specifically identify CFDAs 17.207, 17.801, and ] 7.804 as a duster in the Schedule of Federal Awards
(<<SEFA").

However, we did perfonn our auditing proeedw-es and provided documentation in our work papers to
reflect the programs as part ofa cluster. Our Finn uses the PPC audit work programs for our single audits
and as part of our Firm's quality control. For lIle SCESC singlc audi t for the year ended June 30, 2008,
we completed PPC's Single Audit Reporting Che<:k\ist which contained no steps related to a dustcr or
any mention of the word «cluster."

In future audits we will take necessary steps to identify all dusters in the SEFA. We will also add steps
in nur auditin g procedures to ensure that dusters are considered in the reporting process and prope1"ly
identified and that there is proper linkage between the audit work papers and the SEFA.

We will have the corrective action on the above comments CQrnpletcd and documented by August 31,
2010.

Please let rne   kolOW   ifwe can provide you with further information.

Sincerely,



~Ic;;~
Partner




                                                        18                      Quality Control Review
                                                        South Carolina Employment Security Commission
                                                                       Report Number: 24-10-003-03-315
